No.

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE RILEY,
Petitioner,
v.

ON PETITION FOR A WRIT OF MANDAMUS/PROHIBITION

PETITIONER’S MANDAMUS/PROHIBITION WRIT APPENDIX

Barbara J. Riley
Pro Se, Petitioner
Post Office Box 7313
Jacksonville, Florida 32238-0313
Phone: (904) 316-3698
Fee Paid, Non PLRA

March 3, 2021

Table of Contents
Tampa District Assistant U.S. Attorney’s Void Rule 12 Motion to
Dismiss with prejudice (without 40-Pages of Exhibits)................. 1
District Judge’s sold Void Ex Parte Order granting immunity ... 1?
Circuit Panel's Void Judgment Affirming sold Void Order..

26

State and U.S. Constitution provisions, Statutes Verbatim

33

U.S.D.C. Void Administration Order 440, Summons

38

U.S.D.C. Order (p. 138) showing judge’s number $6,983.42

39

18 Statutory Notice'of Claim; Evidence under 28 U.S.C, §
2675; Sent by U.S.PS. Certified MaiKDReceipt as follows.
1. Re Brian M. Cogan, 05/20/2019, Case #14-cv-4482-BMC-RLM,
Amt. $3,000,000.00 Loss of Property thru Fraud, Trafficking ... 40
2. Re Douglas C. Palmer, 03/27/19, Case #14-cv-4482-BMC-RLM,
Amount $1,410.00 Loss of money thru Fraud, Trafficking ..... 41
3. Re Janet Hamilton, 05/08/19, Case#14-cv-4482-BMCRLM;
Amt. $3,000,000.00 Loss of Property thru Fraud, Trafficking .... 42
4. Re Brian M. Cogan, 04-25-19, Case #15-cv-5022-BMC-RLM,
Amount $4,533,850.00 Loss of Property thru Trafficking....... 43
5. Re Carol Bagley Amon, 04-25-19, Case #15-cv-5022-BMCRLM, Amt. $4,533,850.00 Loss of Property thru Trafficking .... 45
6. Re Dora Lizette Irizarry, 05-20-19, Case 15-cv-5022-BMC/DLIRLM, Amt. $1,500,000 Loss of Property thru Trafficking
47
7. Re Roanne L. Mann, 04-25-19, Case #15-cv-5022-BMC-RLM,
Amt. $4,533,850.00 Loss of Property thru Fraud, Trafficking .... 48

/

Statutory Notices of Claims; Evidence under 28 U.S.C
§ 267S; Sent by U.S.PS. Certified Mail® (eont’d)
8. Re Douglas C. Palmer. 03-27-19, Case #15-cv-5022-BMC-RLM
Amount $905.00 Loss of money through Fraud, Trafficking....."go
9.. Be Janet
, Hamilton, 03-27-19, Case #15 -cv-5022-BMC-RLM
Amount $4,533,860.00 Loss of Property through Trafficking .... 51
Re Marcia Morales Howard, 05-20-19, Case 3:16-ev-898-MMH
- JBT. Amt. $1,500,000.00 Loss of Property thru Trafficking
52
11. Re Sheryl L. Loesch, 03-27-19, Case 3:16-cv-898-MMH-JBT.
Aoit. $905.00 Loss of money thru Fraud and 'Traffiddn g
53
12. Re Betsy Davis,,03-27-19, Case 3:16-cv-898-MMH-JBT.
Amt. SI,500,000.00 Loss of Property thru Trafficking

54

13. Re Marcia Morales Howard, 05-20-19, Case 3:16 -cv-961-MMH
-MCE, Amt. $3,000,000.00 Loss of Property thru Trafficking .... 55
14. Re Sheryl li. Loesch, 03-27-19, Case 3:16-cv-961-MMH-MCR
xAmount $905.00 Loss of money thru Fraud and Trafficking
56
15. Re Betsy Dams, 05-08-19, Case 3:16-cv-961-MMH-MCR,
Amt. $8,000,000.00 Loss of Property thru Fraud, Trafficking .... 57
16. Re Lydia Hay Griggsby, 05-20-19, Case #18-cv-1270,
Amount $4,500,000.00 Loss of Property thru Trafficking

58

17

• Re Lisa L. Reyes, 03-27-19, Case #18-cv-1270.
Amount $400.00 Loss of money thru Fraud........

59

18. Re Anthony Curry, 05-08 -19, Case#18-cv-1270s
Amount $4,500,000.00 Loss of Property thru Trafficking

60

X I

District Court Docket Sheet, Jacksonville District

//

61

Case 3:19-cv-01433-me=s-JBT Document 9 Filed 03/02/20 “°age 1 of 16 PagelD 48
i

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
BARBARA RILEY,
Plaintiff,
vs.

Case no. 3:19-cv-1433-J-20JBT

UNITED STATES OF AMERICA,
Defendant.

DEFENDANT’S MOTION TO DISMISS WITH PREJUDICE
Defendant United States of America hereby moves to dismiss the plaintiffs
Petition Verified for Violations of Due Process with Demand for Jury Trial on All
Claims (Dkt. 1; “the Petition”) pursuant to Fed. R. Civ. P. 12(b)(1) and (6), with
prejudice, for the following reasons.
Allegations of the Complaint
The plaintiff appears pro se and alleges five causes of action under the Federal
Tort Claims Act. Her Petition is an unhinged, incoherent screed complaining that a host of federal judges in the Middle District of Florida, Eastern District of New

York, and the Court of Federal Claims, as well as the Clerks and Deputy Clerks of
Court for those tribunals, acted to deprive the plaintiff'of her property through their
rulings and actions in a number of separate lawsuits filed in myriad forums.

1

Case 3:19-cv-01433-HES-JBT Document 9 Filed 03/02/20 ^Page 2 of 16 PagelD 49

Although the Petition lies against a single named defendant, the United
States, it alleges the conduct of the following judges and judicial personnel as the
basis for the harm claimed:
United States District Judge Brian M. Cogan (E.D.N.Y.);
Senior United States District Judge Dora Lizette Irizarry (E.D.N.Y.);
Senior United States District Judge Carol Bagley Amon (E.D.N.Y.);
United States District Judge Marcia Morales Howard (M.D. Fla.);
United States Court of Federal Claims Judge Lydia Kay Griggsby;
United States Magistrate Judge Roanne L. Mann (E.D.N.Y.);
United States District Court Clerk Douglas C. Palmer (E.D.N.Y.);
United States District Court Clerk Sheryl L. Loesch (M.D. Fla.);
United States Court of Federal Claims Clerk Lisa L. Reyes;
United States District Court Deputy Clerk Janet Hamilton (E.D.N.Y.);
United States District Court Deputy Clerk Betsy Davis (M.D. Fla.); and
United States Court of Federal Claims Deputy Clerk Anthony Curry.
See Dkt. 1, at 1-2. According to the plaintiff, the judicial officers acted
unconstitutionally in dismissing plaintiffs claims in those lawsuits, id. at 2, and
further that the court personnel “directly or indirectly, [have] received proceeds from
a pattern of trafficking in stolen Titles to real property through the years of 1976-2019
ongoing.” Id. at 5, f 9. The plaintiff alleges that “the federal judiciary personnel had
engaged in fraud upon the federal courts through the years of 2014 to 2019,” id. at 5

z

2

Case 3:19-cv-01433-HES-JBT Document 9 Filed 03/02/20 ~Dage 3 of 16 PagelD 50
i

f 17, and “[t]hat fraud upon a federal court immediately removes jurisdiction from
that court and vitiates every decision of that court from that point on.” Id. at 6 ^ 18.
Count I seeks $6,001,410 in money damages arising from the acts of Clerk of
Court Douglas Palmer, Deputy Clerk Janet Hamilton, and District Judge Brian
Cogan in connection with litigation filed by the plaintiff in the Eastern District of
New York under Case no. 14-cv-4482. Id. at 6, Uf 26-27. The docket for this case is
attached as Exhibit A. The plaintiff paid Clerk of Court Palmer certain filing fees, id.
at 7, f f 31-32, 39, Judge Cogan dismissed the plaintiffs complaint, id. at 7,

34,

36, and the Deputy Clerk Hamilton entered judgment on the order. Id. at 7,

35,

37. These acts were allegedly done “for personal financial gain.” Id at 7-8, U

34-

36.
Count II seeks $4,534,755 in money damages arising from the acts of Clerk of
Court Douglas Palmer, Deputy Clerk Janet Hamilton, and District Judges Cogan,
Carol Amon, and Dora Irizarry, and Magistrate Roanne Mann in connection with
litigation filed by the plaintiff in the Eastern District of New York under case number
15-cv-5022. The docket for this case is attached as Exhibit B. Judge Cogan “allowed
himself to be removed” from the case, id. at 9, f 50, and Judge Amon
“unconstitutionally assigned [the case] to Judge Irizarry.” Id. at 10, % 51. Magistrate
Mann recommended dismissal in a report and recommendation, id. at 10, *]] 53,
which was adopted by Judge Irizarry. Id at 10, f 54. These acts were all allegedly
undertaken for “personal financial gain.” Id. at 10, ft 53-55. The plaintiff
unsuccessfully appealed. Id. at 10, f 58.

3

Case 3:19-cv-01433-HES-JBT Document 9 Filed 03/02/20 -Page 4 of 16 PagelD 51

i

Count III seeks $3,000,905 in money damages for the conduct of Clerk of
Court Sheryl Loesch, Judge Marcia Morales Howard, and Deputy Clerk of Court
Betsy Davis in connection with litigation filed in the Middle District of Florida under
case no. 16-CV-898. Id. at 11,f 63. The docket for this case is attached as Exhibit C.
The plaintiff paid certain fees to Clerk of Court Loesch, id. at 1] 67, 73, 74, and
Judge Howard dismissed the plaintiffs complaint. Id. at 12, f 69. Deputy Clerk
Davis entered judgment on tire dismissal. Id. at 12,5,j 70. These acts were
undertaken for “personal financial gain.” Id. at 11-12,f«,{65, 69, 70. The plaintiff
unsuccessfully appealed. Jd. at 12, f ^ 73-74.
Count IV seeks $3,000,905 in money damages for the conduct of Clerk of
Court Sheryl Loesch, Judge Marcia Morales Howard, and Deputy Clerk of Court
Betsy Davis in connection with litigation filed in the Middle District of Florida under
case no. 16-cv-961. Id. at 13,1j 79. The docket for this case is attached as Exhibit D.
The plaintiff paid certain fees to Clerk of Court Loesch, id. at 14,«,] ®] 83, 89, 90, and
Judge Howard dismissed the plaintiffs complaint. Id. at 14, H 85. Deputy Clerk
Davis entered judgment on the dismissal. Id. at 14, % 86. These acts were
undertaken for “personal financial gain.” Id. at 14, f 1 81, 85, 86. The plaintiff
unsuccessfully appealed. Id. at 14, % % 89-90.
Count V seeks $9,000,400 in money damages for the conduct of Clerk of
Court Lisa Reyes, United States Court of Federal Claims Judge Lydia Kay Griggsby,
and Deputy Clerk of Court Anthony Curry in connection with litigation filed in the
Court of Federal Claims under case no. 18-cv-1270. Id. at 15,1) 95. The docket for

4

4

j3ase 3:19-cv-01433^'

vJBT Document 9 Filed 03/02/2r

age 5 of 16 PagelD 52

this case is attached as Exhibit E. The plaintiff paid certain filing fees to Deputy
Clerk Reyes, id. at 16, f 99, and Judge Griggsby dismissed the plaintiff’s complaint in
case no. 18-cv-1270. Id. at 16,1) 101. Deputy Clerk Curry entered judgment on the
dismissal. Id. at 16, ®J 102. These acts were allegedly undertaken for “personal
financial gain.” Id. at 16,

97, 101, 102.

For the reasons set forth below, this complaint should be dismissed with
prejudice for lack of subject matter jurisdiction and for failure to state a cognizable
claim for relief.
Legal Argument
I.

Legal standards
Rule 12(b)(1) requires dismissal of an action if the Court lacks subject matter

jurisdiction. Under this rule, the allegations of the complaint should be construed in
a light most favorable to the pleader. Scheuerv. Rhodes, 416 U.S. 232, 237 (1974); Cote
v. United States, 755 F.2d 873, 878 (11th Cir.1985). Attacks on subject matter
jurisdiction can be facial or factual. Carmichaelv. Kellogg, Brown & Root Servs., Inc., 572
F.3d 1271, 1279 (11th Cir.2009); Lawrence v. Dunbar, 919 F.2d 1525, 1528 (11th
Cir. 1990). A facial attack on the complaint requires the Court to see whether plaintiff
has sufficiently alleged a basis of subject matter jurisdiction. Lawrence, 919 F.2d at
1529. In such a context, the Court must take the allegations in the complaint as true
for purposes of the motion. Id. In contrast, as in the instant case, a factual attack
challenges the existence of subject matter jurisdiction, or the Court's power to hear the
case. Id. In analyzing such a motion, the Court can look outside the pleadings in order

5

<5

Case 3:19-cv-01433-HES-JBT Document 9 Filed 03/02/20 °age 6 of 16 PagelD 53
;

to make its determination, and is free' to weigh the evidence in order to determine
whether it has jurisdiction. Id.; see also Biycmt, 530 F.3d at 1376 (“Iwjhere exhaustion—
liicejuiiSdiction, venue, and service of process—is treated as a matter in abatement and
not an adjudication on die merits, it is proper for a judge to consider facts outside of
the pleadings and to resolve factual disputes so long as the factual disputes do not
decide the merits and the parties have sufficient opportunity to develop the record.1’).
A complaint should only survive dismissal under Rule 12(b)(6) if it states a
legally cognizable claim for relief based upon allegations which could, if true, entitle
the complainant to recover. See Bell Atlantic Corp, v. Twombty, 550 U.S. 544, 556-60
(2007). As the Supreme Court has warned, the federal pleading rules "[do] not unlock
the doors of discovery for a plaintiff armed with nothing more than conclusions."
Ashcroft v. iqbal, 556 U.S. 662. 678 (2009). Accordingly, a court should not assume
that a plaintiff can prove facts that are not alleged in the complaint. See Associated Gen.
Contractors v. Cal State Council of Carpenters, 459 U.S. 519. 526 (1983).
Furthermore, "a complaint must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its face." Iqbal, 556 U.S. at 678
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 550, 555 (2007)). As the Court observed:
A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged. The plausibility standard is not akin
to a ‘probability requirement,' but it asks for more than a
sheer possibility that a defendant has acted unlawfully.
Where a complaint pleads facts that are ‘merely
consistent with1 a defendant’s liability, it 'stops short of the
line between possibility and plausibility of entitlement to
relief.

6

to

Case 3:19-cv-01433-Mt=S-JBT Document 9 Filed 03/02/20 ^age 7 of 16 PagelD 54

Id.
In Iqbal, the Supreme Court undertook a two-part analysis to determine
whether a plaintiffs complaint “nudged [his] claims ... across the line from conceivable
to plausible.” Id. at 680. First, a court should “identify!] the allegations in the
complaint that are not entitled to the assumption of truth.” IdI [Ajllegations [that]
are conclusory a[re] not entitled to be assumed true.” Id. (“It is the conclusory nature
of [plaintiff's allegations, rather than their extravagantly fanciful nature, that
disentitles them to the presumption of truth."). Next, the court should “consider the
factual allegations in [plaintiffs] complaint to determine if they plausibly suggest an
entitlement to relief. ” Id. The complaint at hand do not suggest an entitlement to relief
under any interpretation, and should be dismissed.
II.

The United States is immune from suit.

The United States may not be sued except to the extent that it waives sovereign
immunity by federal statute. FDIC v. Meyer, 510 U.S. 471, 475 (1994); United States v.
Dalm, 494 U.S. 596, 608 (1990). The only waiver that would apply to the plaintiffs
claims in the Petition lies in the Federal Tort Claims Act, 28 U.S.C. § 2679, which
provides the exclusive remedy for certain kinds of tort claims. The United States has
not consented to be sued for intentional torts such as fraud and deceit however. 28
U.S.C. § 2680(h). This exception to the waiver of sovereign immunity must be
strictly construed in favor of the United States. JBP Acquisitions v. United States ex rel.
FDIC, 224 F.3d 1260, 1263 (11th Cir. 2000).

7

7

Case 3:19-cv-01433-' ^ vJBT
Document 9 Filed 03/02/2f
t

age 8 of 16 PagelD 55

Although the Petition occasionally alleges in a throw away fashion that the
defendants acted “negligently and wrongfully.” see Dkt. 1 at 2; 7 at ^129, the clear
thrust of the Petition is that the judicial officers identified by the plaintiff engaged in
intentional, unconstitutional misconduct “for personal financial gain.” In one
incendiary allegation, the plaintiff alleges that these federal judges and clerics
“engaged in a pattern of trafficking in personal void ex parte clerk’s judgments of
dismissal... through the years of 2014-2019 ongoing.” Id. at 4,1} *16-7. To the
extent that these allegations can be read as claims for abuse of process,
misrepresentation or deceit, they are barred by the FTCA’s exception to the statute’s
waiver of sovereign immunity in section 2680(h). IBP Acquisition, 224 F3d at 126466 (misrepresentation and deceit claims barred); Bonilla v. United States, 652 Fed.
Appx. 885, 890 (11th Cir. 2016)(abuse of process claim barred).
The Petition is doomed for the additional reason that the United States is
absolutely immune from suit to the same extent that the judges and court personnel
enjoy such immunity. The United States Supreme Court has held that “absolute
immunity defeats a suit at the outset, so long as the official’s actions were within the
scope of the immunity.’’ Imblerv. Pachtman, 424 U.S. 409,419 n. 13 (1976); see also

1 Because the underlying conduct that is alleged is the same for both intentional torts
and any negligence claims, all counts would be subject to dismissal under section
2680(h), however they are denominated. See JBP Acquisitions, 224 F3d at 1264;
Bonilla, 652 Fed. Appx. at 891, citing Metzv. United States, 788 F.2d 1528, 1534 (11th
Cir. 1986) (“[A] cause of action which is distinct from one of those excepted under §
2680(h) will nevertheless be deemed to ‘arise out of an excepted cause of action
when the underlying governmental conduct which constitutes an excepted cause of
action is ‘essential’ to plaintiffs claim.”).

a

Case 3:19-cv-01433-H^S-JBT Document 9 Filed 03/02/20 ^age 9 of 16 PagelD 56

Mitchell v. Forsyth, All U.S. 511, 526 (1985)(a defendant entitled to absolute or
qualified immunity enjoys “immunity from suit rather than a mere defense to
liability.”)- Therefore, whether the federal judges identified in the Petition are
entitled to absolute judicial immunity is a threshold question, which must be
resolved before any other in this litigation. See Siegertv. Gilley, 500 U.S. 226, 231-33
(1991) (“One of the purposes of immunity, absolute or qualified, is to spare a
defendant not only unwarranted liability, but unwarranted demands customarily
imposed upon those defending a long drawn out lawsuit.”); Mitchell, All U.S. at 525
(“The essence of absolute immunity is its possessor’s entitlement not to have to
answer for his conduct in a civil damages action.”); Parrish v. Nikolits, 86 F.3d 1088,
1094 (11th Cir. 1996) (Noting that entitlement to immunity should be resolved at the
earliest possible stage of litigation).
It is well-settled that judges are entitled to absolute judicial immunity from
litigation for acts taken in their judicial capacities. SeeMireles v. Waco, 502 U.S. 9, 1112 (1991) (per curiam); Stump v. Sparkman, 435 U.S. 349, 356-57 (1978); Washington
Mut: Bank v. Bush, 220 Fed. Appx. 974, 975, 2007 WL 867047 (11th Cir. 2007);
Eubank v. Leslie, 210 Fed. Appx. 837, 845, 2006 WL 3627005 (11th Cir. 2006); Sibley
v. Lando, All F.3d 1067, 1070 (11th Cir. 2005); Simmons v. Conger, 86 F.3d 1080,
1084-85 (11th Cir. 1996). Judicial immunity allows judges to perform their vital
societal functions free of intimidation. See Dennis v. Sparks, 449 U.S. 24, 31 (1980).
The United States Supreme Court has recognized the compelling public policy
underlying this immunity for more than a century. Indeed, as early as 1872, the

9

9

Case 3:19-cv-01433- fjp-JBT Document 9 Filed 03/02/20 ^age 10 of 16 PagelD 57
J

Supreme Court stated that it was:
a general principle of the highest importance to tire proper
administration of justice that a judicial officer, in
exercising the authority vested in him, [should] be free to
act upon his own convictions, without apprehension of
personal consequences to himself.
Stump, 435 U.S. at 355 (citing Bradley v. Fisher, 13 Wall. 335, 347 (1872)). Under the
protection of this firmly-established doctrine, a judge "should not have to fear that
unsatisfied litigants may hound him with litigation charging malice or corruption. ”
Pierson v. Ray, 386 U.S. 547, 554 (1967). As the Eleventh Circuit has observed, the
Supreme Court has set forth a two-part test for determining when a judge is entitled
to immunity when named as a defendant in a personal-liability tort claim. Simmons,
86 F.3d at 1085 citing Stump, 435 U.S. at 362. “The first part of the test is whether
the judge dealt with the plaintiff in a judicial capacity.” Id. If the first part of the test
is met, the Court must determine “whether the judge acted in the ‘clear absence of all
jurisdiction.”’ Id. Here, both parts of the test are satisfied.
“Whether a judge's actions were made while acting in his judicial capacity
depends on whether: (1) the act complained of constituted a normal judicial function;
(2) the events occurred in the judge's chambers or in open court; (3) the controversy
involved a case pending before the judge; and (4) the confrontation arose
immediately out of a visit to the judge in his judicial capacity.” Sibley, 437 F.3d at
1070. In this case, Plaintiffs claims arise from the Federal Judges' rulings in her
myriad cases involving real property in New York. See supra, at pp. 3-5.
The Eleventh Circuit has emphasized that “issuing an order is one of the

10

Case 3:19-cv-01433-HES-JBT Document 9 Filed 03/02/20 Page 12 of 16 PagelD 59

Supreme Court has illustrated the distinction between lack of jurisdiction and excess
of jurisdiction with the following examples:
if a probate judge, with the jurisdiction over only wills
and estates, should try a criminal case, he would be
acting in the clear absence of jurisdiction and would not
be immune from liability for his action; on the other
hand, if a judge of a criminal court should convict a
defendant of a nonexistent crime, he would merely be
acting in excess of his jurisdiction and would be
immune.
Stump, 435 U.S. at 357. Thus, if a judge is colorably acting pursuant to the powers
with which he is invested, he is not acting in the absence of all jurisdiction. Simmons,
86 F.3d at 1084-85.
Here, the judges identified by the Plaintiff clearly had jurisdiction (and the
duty) to address matters arising in connection with the case assigned to them. See
Pierson, 386 U.S. at 554 ("It is a judge's duty to decide all cases within his jurisdiction
that are brought before him, including controversial cases that arouse the most
intense feelings in the litigants.”) As a result, they did not act in the clear absence of
all jurisdiction and are entitled to judicial absolute immunity from suit.
The Clerks and Deputy Clerks of Court that are identified in tire petition
would be entitled to quasi-judicial immunity for the conduct that is alleged. "Nonjudicial officials have absolute immunity for then duties that are integrally related to
the judicial process.” Jenkins v. Clerk of Court, 150Fed.Appx. 988, 990 (11th Cir.
2005). “Absolute quasi-judicial inununity for non-judicial officials is determined by a
functional analysis of their actions in relation to the judicial process.” Id.] compare
Scott v. Dixon, 720 F.2d 1542, 1545 (11th Cir.1983) (clerk of court has absolute

12

12.

Case 3:19-cv-01433-HES-JBT Document 9 Filed 03/02/20 °age 13 of 16 PagelD 60

immunity while performing discretionary functions) and Williams v. Wood, 612 F.2d
982, 985 (5th Cir.1980) (per curiam) with Williams, 612 F.2d at 984 (clerk has
qualified immunity while performing routine ministerial duties); cf. Roland v. Phillips,
19 F.3d 552, 555-56 (11th Cir.1994) (whether non-judicial officials can claim
absolute quasi-judicial immunity depends on "functional analysis” of the official’s
action in relation to the judicial process).
The only specific allegations directed towards the Clerks’ and Deputy Clerks’
conduct are that the Clerks accepted filing fees and the Deputy Clerks entered
judgment following judicial rulings by the judges. The plaintiff nowhere alleges why
these acts are wrongful or how she was any way harmed by these individuals. In any
case, the Clerks and Deputy Clerks would clearly be entitled to quasi-judicial
immunity for any negligence claims arising from the acts alleged. Ross v. Baron, 493
Fed. Appx. 405, 406 (4th Cir. 2012); Meyers v. United States, Case No. 7:19-civ-38,
2019 WL 489137, at *3 (W.D. Va. Feb. 6, 2019); Hamilton v. Newman, Civil Action
No. 2:18-0622-RMG, 2018 WL 4616050, at *2 (D.S.C. Sep. 26, 2018).
Because the individual judges and clerks would be immune from suit for these
claims had they been sued, the United States cannot be sued either. The FTCA
provides in pertinent part:
With respect to any claim under this chapter, the United
States shall be entitled to assert any defense based upon
judicial or legislative immunity which otherwise would
have been available to the employee of the United States
whose act or omission gave rise to the claim, as well as
any other defense to which the United States is entitled.

13

/3

Case 3:19-cv-Q1433-HES-JBT Document 9 Filed 03/02/20 _Page 16 of 16 PageiD 63

Respectfully submitted,
MARIA CHAPA LOPEZ
United States Attorney
By:

/s/ Lacv R. Harwell. Jr._________ .
LACY R. HARWELL, JR.
Assistant United States Attorney
Florida Bar No: 714623
Office of tlie United States Attorney
For the Middle District of Florida
400 N. Tampa St, Suite 3200
Tampa, Florida 33602
Tel. (813) 274-6000
Fax (813) 274-6200
Randy.Harwell@usdoj .gov

CERTIFICATE OF SFJRVTCF.
I HEREBY CERTIFY that on March 2, 2020,1 sent a true copy of the
foregoing by United States mail, first class postage prepaid, to:
Barbara Rilev
P.O.Box 7313
Jacksonville, FL 32238
/s/ Lacv R. Harwell. Jr._______
Lacy R. Harwell, Jr.
Assistant United States Attorney

16

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
BARBARA RILEY,
Plaintiff,
v.

CASE NO. 3:19-cv-l433-J-20JBT

UNITED STATES OF AMERICA,
Defendant.

ORDER
THIS CAUSE is before this Court on Defendant’s Motion to Dismiss with Prejudice
(Dkt. 9) and Plaintiffs response (Dkt. 12).
\

While not a model of clarity, Plaintiff s meandering Petition can be summarized as
follows, various federal courts, ranging from Florida to New York, impermissibly dismissed her
lawsuits and, in concert with their clerks and deputy clerics of court, improperly kept Plaintiffs
*

filing fees for personal financial gain. This conduct forms the basis of Plaintiff s five-count
Petition grounded in the Federal Tort Claims Act (FTCA). (Dkt. I).
The Petition, while filed against the United States, alleges the conduct of the following
judicial personnel form the basis for her alleged harm: United States District Judge Brian M.
Cogan (E.D.N.Y.); United States District Judge Dora Lizette Irizarry (E.D.N.Y.); United States

District Judge Carol Bagley Amon (E.D.N.Y.); United States District Judge Marcia Morales
Howard (M.D. Fla.); United States Court of Federal Claims Judge Lydia Kay Griggsby; United
States Magistrate Judge Roanne L. Mann (E.D.N.Y.); United States District Court Clerk Douglas
C. Palmer (E.D.N.Y.); United States District Court Clerk Sheryl L. Loesch (M.D. Fla.); United
States Court of Federal Claims Clerk Lisa L. Reyes; United States District Court Deputy Clerk

n

case. This Court can, therefore, look beyond the pleadings to resolve Defendant’s motion.
Lawrence, 919 F.2d at 1529.
This Court turns to the government’s arguments for dismissal. First, the government
insists it is immune from this case; or it cannot be sued by Plaintiff for her current complaints.
Generally, the federal government is shielded from a lawsuit unless it consents to be
sued. FDIC v. Meyer, 510 U.S. 471, 475 (1994). In other words, unless the “Federal Government
and its agencies” has waived its “sovereign immunity” by a federal statute it cannot be sued. Id.
The FTCA is the sole waiver Plaintiff seeks to apply to her claims, 28 U.S.C. § 2679. The
FTCA, however, provides no safe harbor for her claims as it explicitly excludes intentional torts
such as misrepresentation and deceit. 28 U.S.C. § 2680(h). See also Alvarez v. United States, 862
F.3d 1297, 1301-02 (11th Cir. 2017) (recognizing the intentional tort exception to the FLSA’s
wavier of sovereign immunity).
Relatediy, the intentional tort exception must be strictly construed in favor of the United
States. Alvarez v. United States, 862 F.3d 1297,1301-02 (11th Cir. 2017); JBP Acquisitions v.
United States ex rel. FDIC, 224 F.3d 1260, 1263 (11th Cir. 2000).
Plaintiff s allegations as a whole can be read as claims for abuse of process,
misrepresentation or deceit are barred by the FTCA’s exception to the statute’s waiver of
sovereign immunity in § 2680(h).1 See Alvarez, 862 F.3d at 1301-02. See also JBP Acquisitions,
224 F.3d at 1264 (explaining, “It is the substance of the claim and not the language used in
stating it which controls whether the claim is barred by an FTCA exception. Thus, a plaintiff

Plaintiff occasionally alleges the individuals in the Petition acted “negligently and wrongfully.”
Regardless, of the legal terms she uses, Plaintiffs Petition in totality maintains the judicial
officers engaged in intentional, unconstitutional misconduct “for personal financial gain."
3

cannot circumvent the misrepresentation exception simply through the artful pleading of its
claims.” (internal quotations and citations omitted)); Metz v. United States, 788 F.2d 1528, 1534
(11th Cir. 1986) (stating, “[A] cause of action which is distinct from one of those excepted under
§ 2680(h) will nevertheless be deemed to arise out of an excepted cause of action when the
underlying governmental conduct which constitutes an excepted cause of action is essential to
plaintiffs claim, (internal quotations omitted)). For this reason, Plaintiffs claims are barred by
the FTCA s exception to the statute’s waiver of sovereign immunity under § 2680(h).
Second, the government insists Plaintiffs Petition cannot survive because it is absolutely
immune from suit to the same extent that the judges and court personnel enjoy this immunity.
The Supreme Court teaches “absolute immunity defeats a suit at the outset, so long as the
official’s actions were within the scope of the immunity.” Imbler v. Pachtman, 424 U.S. 409,
419 n. 13 (1976); see also Mitchell v. Forsyth, 472 U.S. 511, 526 (1985) (stating “[t]he
entitlement is an immunityfrom suit rather than a mere defense to liability; and like an absolute
immunity, it is effectively lost if a case is erroneously permitted to go to trial.” (emphasis in
original))
To resolve this issue, this Court must establish whether the judges mentioned in the
Petition are entitled to absolute judicial immunity. See Siegert v. Gilley, 500 U.S. 226, 232
(1991) (providing, “One of the purposes of immunity, absolute or qualified, is to spare a
defendant not only unwarranted liability, but unwarranted demands customarily imposed upon
those defending a long drawn out lawsuit.”); Mitchell v. Forsyth, 472 U.S. 511, 525 (1985)
(stating [t]he essence of absolute immunity is its possessor’s entitlement not to have to answer
for his conduct in a civil damages action.”).
Judges are, generally, entitled to absolute judicial immunity from litigation for acts taken
4

1

in their judicial capacities. See Mireles v. Waco, 502 U.S. 9, 11-12 (1991). The Supreme Court
explained that to maintain “the proper administration ofjustice” judicial officers should “be free
to act upon his own convictions, without apprehension of personal consequences to himself.”
Stump v. Sparkman, 435 U.S. 349,355 (1978) (internal quotations and citation omitted). Under
the protection of this established doctrine, a judge “should not have to fear that unsatisfied
litigants may hound him with litigation charging malice or corruption. Imposing such a burden
on judges would contribute not to principled and fearless decisionmaking but to intimidation.”
Pierson v. Ray, 386 U.S. 547, 554 (1967).
The Eleventh Circuit recognizes a two-part test for determining when a judge is entitled
to immunity when named as a defendant in a personal-liability tort claim. Simmons v. Conger, 86
F.3d 1080,1084 (11th Cir. 1996). The first element asks if the judge interacted with the plaintiff
“in a judicial capacity.” Id. If so, the second element questions “whether the judge acted in the
‘clear absence of all jurisdiction.’” Id. (quoting Stump v. Sparkman, 435 U.S. 349, 357).
The first question—the judicial capacity element—“depends on whether: (1) the act
complained of constituted a normal judicial function; (2) the events occurred in the judge’s
chambers or in open court; (3) the controversy involved a case pending before the judge; and (4)
the confrontation arose immediately out of a visit to the judge in his judicial capacity.” Sibley v.
Lando, 437 F.3d 1067, 1070 (11th Cir. 2005).
The Eleventh Circuit has emphasized that “issuing an order is one of the paradigmatic
judicial acts involved in resolving disputes between parties who have invoked die jurisdiction of
a court.” Bush v. Washington Mut. Bank, 111 Fed. Appx. 16, 17-18, 2006 WL 924385 (11th Cir.
2007) (quoting Forrester v. White, 484 U.S. 219,227 (1988)). This absolute judicial immunity
applies “even when the judge’s acts are in error, malicious or were in excess of his or her
5

21

r

jurisdiction.” Bolin v. Story, 225 F.3d 1234,1239 (11th Cir. 2000). As the United States Supreme
Court explained:
Ifjudges were personally liable for erroneous decisions, the resulting avalanche
of suits, most of them frivolous but vexatious, would provide powerful
incentives forjudges to avoid rendering decisions likely to provoke such suits.
The resulting timidity would be hard to detect or control, and it would
manifestly detract from independent and impartial adjudication. Nor are suits
against judges the only available means through which litigants can protect
themselves from the consequences of judicial error. Most judicial mistakes or
wrongs are open to correction through ordinary mechanisms of review, which
are largely free of the harmful side-effects inevitably associated with exposing
judges to personal liability.
Forrester, 484 U.S. at 226-227.
Here, Plaintiffs claims arise from the judges’ rulings in her cases involving real property
in New York. These judges plainly interacted with Plaintiff in a judicial capacity while
fashioning their rulings. Therefore, this Court turns to whether or not the judges acted in clear
absence of all jurisdiction.
The clear absence of ail jurisdiction question has been illustrated by the Supreme Court.
The Court has instructed on the distinction between lack of jurisdiction and excess of jurisdiction
with the following examples:
if a probate judge, with the jurisdiction over only wills and estates, should try a
criminal case, he would be acting in the clear absence ofjurisdiction and would not
be immune from liability for his action; on the other hand, if a judge of a criminal
court should convict a defendant of a nonexistent crime, he would merely be acting
in excess of his jurisdiction and would be immune.
Stump, 435 U.S. at 357 n.7 (citing Bradley, 80 U.S 335,352).
Here, the judges clearly had jurisdiction to address matters arising in connection with the
cases assigned to them. See Pierson, 386 U.S. at 554 (explaining, “It is a judge’s duty to decide
all cases within his jurisdiction that are brought before him, including controversial cases that
6

<2Z

arouse the most intense feelings in the litigants.”). As a result, the judges did not act in the clear
absence of all jurisdiction, and they are entitled to absolute judicial immunity from Plaintiffs
suit.
The clerks and deputy clerks are also entitled to quasi-judicial immunity for the alleged
conduct. This is so since,<£[njonjudicial officials are encompassed by a judge’s absolute
immunity when their official duties have an integral relationship with the judicial process. Like
judges, these officials must be acting within the scope of their authority.” Roland v. Phillips, 19
F.3d 552,555 (11th Cir. 1994) (internal citation and quotations omitted). See also Jenkins v.
Clerk ofCourt, 150 F. App’x 988, 990 (11th Cir. 2005) (providing, “Nonjudicial officials have
absolute immunity for their duties that are integrally related to the judicial process. Absolute
quasi-judicial immunity for nonjudicial officials is determined by a functional analysis of their
actions in relation to the judicial process.”).
The only specific allegations directed towards the clerks’ and deputy clerks’ conduct are
that the clerks accepted filing fees and the deputy clerks entered judgment following judicial
rulings. Plaintiff does not allege why these acts are wrongful or how she was harmed by these
individuals. In any case, the clerks and deputy clerks are clearly entitled to quasi-judicial
immunity for any negligence claims arising from Plaintiff s allegations. See Ross v, Baron, 493
F. App’x. 405, 406 (4th Cir. 2012) (providing, “a court clerk is generally entitled to quasi­
judicial immunity.”).
Because the individual judges and clerks would be immune from suit for these claims had
they been sued, the United States cannot be sued either. The FTCA provides:
With respect to any claim under this chapter, the United States shall be entitled to
assert any defense based upon judicial or legislative immunity which otherwise
would have been available to the employee of the United States whose act or
7

23

1
omission gave rise to the claim, as well as any other defenses to which the United
States is entitled.
28 U.S.C. § 2674.
Accordingly, where a federal judicial officer’s actions form the basis for the FTCA claim,
the United States enjoys judicial immunity if the individual judicial officer would be immune
from suit Tinsley v. Widener, 150 F.Supp. 2d 7, 12 (D.D.C. 2001). Since the individual judges
are entitled to absolute judicial immunity, and the clerks and deputy clerks are entitled quasi­
judicial immunity, the United States is immune as well. Tinsley, 150 F. Supp. 2d at 12; see also
Bush v. Blake, No. JFM-11-1410, 2011 WL 2311835, at *2 (D. Md. June 9, 2011); McGee v.
United States,'Ho. l:10-cv-521, 2010 WL 3211037, at *3 (S.D. Ohio Aug. 12, 2010); Dockery
v. United States, No. 08-80031-CIV, 2008 WL 345545, at *2 (S.D. Fla. Feb. 6,2008).
This lawsuit, in essence, has given voice to Plaintiffs displeasure with having to pay the
filing fees for legal rulings she distains. Plaintiffs dissatisfaction with those judicial decisions,
however, does not give rise to an independent tort.
Accordingly, it is ORDERED:
1. Defendant’s Motion to Dismiss with Prejudice (Dkt. 9) is GRANTED;
2. This case is dismissed with prejudice; and
3. The Clerk is directed to terminate all pending motions and close this case.2
DONE AND ORDERED at Jacksonville, Florida, this^jZTday of April, 2020.

VEY4K
teePStates

UNGER
DISTRICT judge

2 This Court is fairly confident it will be included in an action by Plaintiff. Plaintiff must
understand there is no maliciousness in the dismissal of her action—she has simply failed to state
a cause of action.
8

2.4

.

:'~v
\

i

a

Copies to;
Barbara,Mley; Pro Se
Lacy R. Harwell,. Jr.-, Esq.

;

:

?

9

Z5
J.

• •*.

\

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11980
Non-Argument Calendar
D.C. Docket No. 3:19-cv-01433-HES-JBT

BARBARA J. RILEY,
Plaintiff-Appellant,
versus
UNITED STATES OF AMERICA,
Defendant-Appellee.

Appeal from the United States District Court
for the Middle District of Florida
(December 8,2020)
Before MARTIN, BRANCH and FAY, Circuit Judges.
PER CURIAM:

2Jo

Barbara J. Riley, pro se, appeals tbe dismissal of her Federal Tort Claims
Act action for failure to state a claim for which relief may be granted. We affirm.
LBACKGROUND
Riley filed a Federal Tort Claims Act (“FTCA”)1 action alleging fraud and
violations of her constitutional rights against the government, six federal judges, a
federal magistrate judge, three court clerks, and three court deputy clerks. Riley
asserted that these federal judges and clerks, who were involved in five civil
actions filed by Riley, unconstitutionally accepted her filing fees, dismissed her
actions without a hearing, and entered void orders against her. As relief, Riley
requested monetary damages and an injunction to enjoin further violations of her
rights.
The government responded that the district court should dismiss Riley’s
complaint because it did not provide any basis for relief, and the district court
granted the government’s motion to dismiss with prejudice. It noted that it could
look beyond the pleadings to resolve the government’s motion to dismiss, which
constituted a factual attack on the district court’s subject matter jurisdiction. It
then found that, if Riley’s allegations raised claims for abuse of process,
misrepresentation, or deceit, the FTCA explicitly excluded these types of
intentional torts from its waiver of sovereign immunity. It also found that the

28 U.S.C. § 1346(b)(1)

2S]

federal judges identified in Riley’s complaint were entitled to absolute judicial
immunity because these judges interacted with Riley in a judicial capacity and did
not act in the clear absence ofjurisdiction. It further found that the clerks
identified in Riley’s complaint were entitled to quasi-judicial immunity for
accepting filing fees and entering judgment following judicial rulings and that
Riley had failed to allege why these acts were wrongful or how she was harmed by
these individuals. It then found that the government was immune from suit
because the federal judges and clerks identified in Riley’s complaint were entitled
to absolute judicial and quasi-judicial immunity. It noted that Riley’s
dissatisfaction with having to pay filing fees and with the judicial decisions in her
prior federal litigation did not give rise to an independent tort.
II. DISCUSSION
On appeal, Riley argues that the district court unconstitutionally dismissed
her action without a hearing.2 We review de novo a district court’s granting of a
motion to dismiss for failure to state a claim, accepting the allegations in the
complaint as true and construing them in the light most favorable to the plaintiff.
Hunt v. Aimco Properties, L.P., 814 F.3d 1213,1221 (11th Cir. 2016). Pro se

2 Riley waived any arguments challenging the district court’s findings that the federal judges and
clerks were immune from her suit and that the FTCA’s intentional torts exception barred her
claims when she failed to raise these arguments in her initial brief. Timson v. Sampson, 518 F.3d

870, 874 (11th Cir. 2008) (recognizing that, while pro se briefs are held to a less stringent
standard, a pro se litigant abandons any argument not addressed in her opening brief).

3

zs

pleadings are held to a less stringent standard than pleadings drafted by attorneys
and are thus liberally construed. Tannenbaum v. United States, 148 F.3d 1262,
1263 (11th Cir. 1998).
To withstand a motion to dismiss under Federal Rule of Civil Procedure
12(b)(6), a complaint must include “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl Corp. v, Twombly, 550 U.S. 544, 570,127 S. Ct.
1955, 1974 (2007). “A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S. Ct. 1937, 1949 (2009).
The government is immune from suit unless it waives its sovereign
immunity. FDIC v. Meyer, 510 U.S. 471,475,114 S. Ct. 996, 1000 (1994).
Although the government has waived its immunity for tort claims brought under
the FTCA, the FTCA explicitly excludes intentional torts like abuse of process,
misrepresentation, and deceit from this waiver. Alvarez v. United States, 862 F.3d
1297,1301-02 (11th Cir. 2017). In evaluating whether a claim is barred by this
intentional torts exception, we will examine “the substance of the claim and not the
language used in stating it.” Id. at 1302 (quoting Zelaya v. United States, 781 F.3d
1315, 1334 (11th Cir. 2015)). Constitutional torts against federal defendants also

2$

«

are not cognizable under the FTCA. Meyer, 510 U.S. at 477-78,114 S. Ct. at
1001.
Here, the district court properly granted the motion to dismiss Riley’s action
because she did not assert facts to support the allegations raised in her complaint.
Riley did not state a claim for relief that was plausible on its face because the acts
of accepting filing fees, dismissing her civil actions without a hearing, and entering
ex parte orders and judgments were required by statute and do not constitute torts
or constitutional violations. See Twombly, 550 U.S. at 570, 127 S. Ct. at 1974.
Although she alleged that the federal judges and clerks involved in her prior
litigation acted illegally and fraudulently, she did not provide any facts that would
have allowed the district court to reasonably infer what these judges and clerks did
that was in violation of any law or statute, in order to be civilly liable for some
misconduct. See Iqbal, 556 U.S. at 678,129 S. Ct. at 1949. Thus, the district court
properly granted the government’s motion to dismiss when Riley’s allegations did
not amount to more than labels or conclusory statements about the alleged
misconduct of the federal judges and clerks identified in her complaint. See
Twombly, 550 U.S. at 555,127 S. Ct. at 1965.
Furthermore, Riley’s claims are subject to the FTCA’s intentional torts
exception or are otherwise not cognizable under the FTCA. To the extent that
Riley raises claims for abuse of process, misrepresentation, or deceit, these claims

jb

"~A

i

are barred by the FTCA’s intentional torts exception. See Alvarez, 862 F.3d at
1301-02. Any constitutional tort claims that Riley may have raised also are not
cognizable under the FTCA. See Meyer, 510 U.S. at 411-1%, 114 S. Ct at 1001.
Accordingly, the district court correctly determined that Riley could not bring her
claims under the FTCA.
AFFIRMED*

6

31

\

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules sod forms visit

David J. Smith
Clerk of Court

December 08,2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-11980-GG
Case Style; Barbara Riley v. USA
District Court Docket No: 3:19-cv-01433-HES-JBT
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system, unless
exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF system by registering for an
account at www.paeer.gov. Information and training materials related to electronic filing, are available at
www.call.uscourts.gov. Enclosed is a copy of the court’s decision filed today in this appeal. Judgment has this day been
entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing en
banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for rehearing
or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rales. Costs are governed
by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney’s fees and an objection thereto is
governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of ail
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In addi tion, a
copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for rehearing en banc. See
11 th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on the
appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for writ of
certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evouchcr@cal 1 .useourts.gov for questions regarding CJA vouchers or the eVoucher system.
Pursuant to Fed.R. App.P. 39, costs iaxea against the appellant.
Please use the most recent version of the Bill of Costs form available on the court's website at
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature block
below. For all other questions, please call Joseph Caruso. GG at (404) 335-6177.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: DjuannaH. Clark
Phone #: 404-335-6151
OPIN-1A Issuance of Opinion With Costs

3Z

The federal and Florida State Constitution provisions and federal Statutes
involved: and here set out verbatim
U.S. CONSTITUTION
Amendment I
Congress shad make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press: or the right of the people
peaceably to assemble, and to petition the government for a redress of grievances.
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury , except in cases arising in the land or naval forces,
or m the militia when m actual service in time of war or public danger; nor shall any person
be subject for the same offense to be twice put in jeopardy of life or limb- nor shall be
compelled m any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be taken for public
use, without just compensation.
Amendment VII
In suits at common law, where the value in controversy shall exceed twenty dollars, the ri°ht
of trim by jury shall be preserved, and no fact tried by a jury, shall be otherwise reexamined
m any court of the United States, than according to the rules of the common law.
Amendment XIII
Neither slavery nor involuntary servitude, except as a punishment for crime whereof the
party shall have been duly convicted, shall exist within the United States or any place
subject to their jurisdiction.
Amendment XIV
All persons born or naturalized in the United States, and subject to the jurisdiction thereof,
aie citizens of the United States and of the state wherein they reside. No state shall make or
enforce any law which shall abridge the privileges or imm unities of citizens of the United
States; nor shah any state deprive any person of Life, liberty, or property, without due process
of law, noi deny to any person withm its jurisdiction the equal protection of the la ws.
FLORIDA STATE CONSTTTTTTTOTv
Alt. I, SEC. 2.

Basic rights.—All natural persons, female and male alike.

arc equal before
the law and have inalienable rights, among which are the right to enjoy and defend life and

liberty, to pursue happiness, to be rewarded for industry, and to acquire, possess and protect
property. No person shall be deprived of any right because of race, religion, national origin,
or physical disability.
Art. I, SEC. 5.

Right to assemble.-The people shall have the right peaceably to assemble,

to instruct their representatives, and to petition for redress of grievances.

Art. I, SEC. 9.

Due process.

No person shall be deprived of life, liberty or property without

due process of law, or be twice put in jeopardy for the same offense, or be compelled in any
criminal matter to be a witness against oneself.
Art. I. SEC. 21.

Access to courts. The courts shall be open to every person for redress of

any injury, and justi.ee shall be administered without sale, denial or delay.
Art, I, SEC. 22. Trial by jury.—The right of trial by jury shall be secure to all and remain
inviolate. The qualifications and the number of jurors, not fewer than six, shall be fixed by
law

STATUTES
Tbe Judiciary Act of 1789, Chapter 20, Section 82. reads as follows (b):
‘‘SEC. 32. And be it further enacted. That no summons, writ, declaration, return,
process, judgment, or other proceedings in civil cases in any of the courts or the
United States, shall be abated, arrested, quashed or reversed, for any defect or want of
j.orm, but the said courts respectively shall proceed and give judgment according as
the right of the cause and matter in law shall appear unto them, without regarding any
imperfections, defects or want of form in such writ, declaration, or other pleading,
returns process, judgment, or course of proceeding whatsoever, except those only in
cases of demurrer, which the party demurring shah specially sit down and express
toget ei with his demurrer as the cause thereof. And the said courts respectively shall
and may, by virtue of this act, from time to time, amend all and every such
imperfections, defects and wants of form, other than those only which the party
demurring shall express as aforesaid, and may at any, time, permit either of the parties
to amend any defect in the process of pleadings upon such conditions as the said
courts respectively shall in their discretion, and by their rules prescribe."

18 U.S.C. § 241. Conspiracy against rights
If two or more persons conspire to injure, oppress, threaten, or intimidate any person m any
State, Territory, Commonwealth, Possession, or District in the free exercise or enjoyment of
any right oi privilege secured to him by the Constitution or laws of the United States or
because of his having so exercised the same; or
II two or more persons go in disguise on the highway, or on the premises of another, with
intent to prevent or hinder his free exercise or enjoyment of any right or privilege so
i
!?e
unf^er
title or imprisoned not more than ten years, or both- and if
death results from the acts committed in violation of this section or if such acts include
kidnapping or an attempt to kidnap, aggravated sexual abuse or an attempt to commit
aggravated sexurn abuse, or an attempt to kill, they shall be fined under this title or
imprisoned lor any term of years or for life, or both, or may be sentenced to death.

34-

18 U.S.C. § 246. Deprivation of relief benefits
Whoever directly or indirectly deprives, attempts to deprive, or threatens to deprive any
person of any employment, position, work, compensation., or other benefit provided for or
made possible m whole or in part by any Act of Congress appropriating funds for work relief
or relief purposes, on account of political affiliation, race, color, sex, religion, or national
origin, shall be fined under this title, or imprisoned not more than one .year, or both.

28 U.S.C. § 545. Residency
(a) Each United States attorney shah reside in the district for which he is appointed, except
that these officers of the District of Columbia, die Southern District of New York, and the
Eastern District of New York may reside within 20 miles thereof. Each assistant United
States attorney shall reside in the district for which he or she is appointed or within 25 miles
thereof. The provisions of this subsection shah not apply to any United States attomev or
assistant. United btat.es attorney appointed for the Northern Mariana Islands who at the
same time is serving in the same capacity in another district. Pursuan t to an order from the
Attorney General or his designee, a United States attorney or an assistant United States
attorney may be assigned dual or additional responsibilities that exempt such officer from
the residency requirement m this subsection for a specific period as established by the order
and subject to renewal.
28 U.S.C. 1346. United States as defendant
(b)(1) Subject to the provisions of chapter 171 of this title, the district courts, together with
the United States District Court for the District of the Canal Zone and the District Court of '
the Vugm Islands, shall have exclusive jurisdiction of civil actions on claims against the
United States, for money damages, accruing on and after January 1. 1945. for injury or loss
of property, or personal injury or death caused by the negligent or wrongful act or omission of
any employee of the Government while acting within the scope of his office or employment
under circumstances where the United States, if a private person, would be liable to the
Claimant m accordance with the law of the place where the act or omission occurred.
28 U.S.C. § 1651. Writs
(a) The Supreme Court and all courts established by Act of Congress may issue all writs
andprSLsofkw^ ” ^ °f ^ re*Pective jurisdictions and agreeable to the usages
<b) An alternative writ or rule nisi may be issued by a justice or judge of a court which has
jurisdiction.
28 U.S.C. § 2674. Liability of United States
The United States shall be liable, respecting the provisions of this title relating to tort
claims, in the same manner and to the same extent as a private individual under like
circumstances, but shall not be liable for interest prior to judgment or for punitive damages.

£5

28 U.S.C. § 2675. Disposition by federal agency as prerequisite; evidence
(a) An action shall not be- instituted upon a claim against the United States for monev
damages for injury or loss of property or personal injury or death caused by the negligent or
wrongful act or omission of any employee of the Government while acting within the scope of
his office or employment, unless the claimant shall have first presented the claim to the
appropriateJfederal agency and his claim shall have been finally denied by the agenev in
writing and. sent by certified or registered mail. 'Hie failure of an agency to mate final
disposition of a claim within six months after it is filed shall, at the option of the claimant
any time thereafter, be deemed a final denial of the claim for purposes of this section. The
provisions ol this subsection shall not. apply to such claims as may be asserted under the
.1. ed.GJ.al Ixihgs) of Civil Procedure by third party complaint, cross-claim, or counterclaim.
(h) Action under this section shah not be instituted for any sum in excess of the amount of
the claim presented to the federal agency, except where the increased amount .is based upon
newly discovered evidence not reasonably discoverable at the time of presenting the claim to
the fecleraljigency . or upon allegation and proof of intervening facts, relating to the amount
of the claim.
(c) Disposition of any claim by the Attorney General or other head of a federal agency shall,
not be competent evidence of liability or amount of damages.
28 U.S.C. § 2677. Compromise
The Attorney General or his designee may arbitrate, compromise, or settle any claim
cognizable- under section. 1346(b) of this title, after the commencement of an action
thereon.
42 U.S.C. § 1981. Statement of equal rights
AVI! persons within the jurisdiction, of the United States shaft have the same right in every
State and Territory to make and enforce contracts, to sue, be parties, give evidence, and to
the full and equal benefit of all laws and proceedings for the security of persons and property
as is enjoyed by wnite citizens, and shall be subject to like punishment, pains, penalties
faxes, licenses, and exactions of every kind, and to no other.*
42 U.S.C. § 1982. Property rights of citizens
All. edazens oi the United States shall have the same right, in every State and Territory
as is
S5r?lprope^-CitiZenS thereof t0
purchase, lease, sell, hold, and convey''real and

42 U.S.C. §8 1983 Civi1 action for deprivation of civil rights
“Every person who, under color of any statute, ordinance, regulat ion, custom, or usa°e.
any cinzen of the United State's

42 U.S.C. §1985(3). Depriving persons of rights or privileges
If two or more persons in. any Slate or Terri ton- conspire or go in disguise on the highway or on. ihc
premises of another. for die purpose of depriving, either directly or indirectly, any person or class of
persons of the equal protection of the laws, or of equal privileges and immunities under Ute laws: or for She
purpose of preventing or hindering the constituted authorities of any State or Territory from giving or
securing to ail persons within such State or Territory the equal protection of (he laws: or if wo or more
persons conspire to prevent by force, intimidation, or threat, any citizen who is lawfully entitled to vote,
from giving his support or advocacy in a legal manner, toward or in favor of the election ofanv lawfully
qualified person as an elector for President or Vice President or as a Member of Congress of the United
States: or to injure any citizen in person or property on account of such support or advocacy: in any case
ol conspiracy set forth in litis section, if one or more persons engaged therein do, or cause to be done, anv
act in iuriherance of the object of such conspiracy, whereby another is injured in his person or property or
deprived of having and exercising any right or privilege of a citizen of die United States, the party so '
injured or deprived may have an action for the recovers- of damages occasioned by such injury or
deprivation, against any one or more of the conspirators.

37

3

AO 440 (Rev. 12/09) Summons in a Civil

r
A

United States District Court
for the

)
)
• )
)
)
)
)

Plaintiff

v.

Defendant

Civil Action No.

SUMMONS IN A CIVIL ACTION
To: (Defendant's name and address)

A lawsuit has been filed against you.
Within 21 days after service of this summons on you (not counting the day you received it) — or 60 days if you
are the United States or a United States agency, or an officer or employee of the United States described in Fed. R. Civ.
P. 12 (a)(2) or (3) — you must serve on the plaintiff an answer to the attached complaint or a motion under Rule 12 of
the Federal Rules of Civil Procedure. The answer or motion must be served on the plaintiff or plaintiffs attorney,
whose name and address are:

If you fail to respond, judgment by default will be entered against you for the relief demanded in the complaint.
You also must file your answer or motion with the court.

CLERK OF COURT
Date:
Signature of Clerk or Deputy Clerk

" Case 3:Q9-cv-10000-WGY-JBT Document 2181 Filed 10/18/17- Page 138 of 148 PageiD 65473
)

mdudmg in the context of imposing sanctions, Nogess v. Povdras Center T J ,C Civil Action
No. 16-15227, 2017 WL 396307, at *14 (E D. La Jan. 30, 2017) (collecting cases using
figures from the Rand Study to calculate sanctions). Adjusting for inflation in 2017 dollars.
this amounts to an average cost to the public of $6,983.42 for each tobacco lawsuit.71 This
data provides a basis for assessing the value of judicial resources wasted by frivolous
litigation.
The Court has determined that Wilner and Farah were responsible for filing and
maintaining at least 1,250 frivolous suits, With each frivolous lawsuit costing the judiciary,
on average, $6,983.42, the value of Court resources wasted by Wilner’s andFaralTs conduct
amounts to $8,729,275. Because these cases were frivolous from, their inception, and
because Wilner s and Faralf's

entire course of conduct’ throughout, and indeed preceding,

the litigation” was part of a pattern of advancing invalid claims, the Court can identify the
entire cost of these frivolous suits as directly resulting from. Counsel5s behavior. Goodyear.
1j7 S. Ct. at I18/-88 (citing Chambers. 501 U.S. at 51, 5/, 58). Yet, even this figure
inadequately captures the enormity' and complexity of the challenges Wilner5s and Farabis
behavior put before the Court.72 For nearly two and a half years, from early 2011 to mid-

71
- ----------- .--------------- —-

r- '

. .1.'.. t-.-.L.

■

■ '

yii-A- A .

- L'

-

- -• ~~

.. -

.

. .

1 he Court takes judicial notice of the Bureau of Labor Statistics5 inflation-adjustment calculator, a
widely-accepted instrument for measuring the present-value of a dollar figure. Other courts have
also used this calculator to obtain the present value of the dollar figures presented in the Rand Studv
Nogess. 2017 WL 3963 07 at * 15.
The $6,983.42 number represents the “average” personal injury action, which likely
underestimates the financial drain on the Court’s resources because the. Engle cases were not
“average,” but were complex and necessitated substantial Court time and effort. Ironically, the
sanction likely would have been greater had the Court acted immediately on tiie tobacco companies’
motion for Rule 11 sanctions, which was later withdrawn pursuant to the settlement agreement.
138

To: US. Chief District Judge Dora Lizette Irizarry
United States District Court
For the Eastern District of New York
225 Cadman Plaza East
Brooklyn, NY 11201
Re: Federal Tort Claims Act;
Claims Against Federal Judiciary Officer
Brian M. Cogan under 28 U.S.C. 2675
Certified Mail. Return Receipt Requested Article No. 7016 1370 0000 1646 0709
NOTICE OF CLAIMS NOTICE FOR FRAUD UPON FEDERAL COURTS BY
FEDERAL JUDICIARY OFFICER BRIAN M. COGAN
NOTICE IS HEREBY given that I, Barbara J. Riley, Claim damage to property in the
amount of $3,000,000.00 through frauds upon federal courts by Federal Judiciary Officer
Brian M. Cogan who entered two (2) Void Ex parte orders of dismissal on 10/29/2014
and 08/18/2017 in pro se Case #14-cv-4482. My property was taken without due process.
That I paid for immediate administration of justice to Federal Judiciary Employee '
Douglas C. Palmer who immediately closed the federal courts to me. This is in clear
violation of the Judiciary Act of 1789. 28 U.S. Code § 1655, First Amendment of the
U.S. Constitution, Felder v. Casey 1988 of the US. Supreme Court, Fifth Amendment of
the U.S. Constitution, and Article I Section 21 Access to Courts clause of the Florida
Constitution which guarantees that “The Courts shall be Open to every person for redress
of any injury and Justice shall be administered without Sale, Denial, or Delay. ”
That District Court Judge Cogan is in clear violation of his Oath of office and the U.S.
Constitution as he defrauds the United States every day. That the federal courts are not
Open to certain individuals ever. Your corrupt Judge Cogan knows that the federal
courts are never ever Open to pro se individuals. Because for years he immediately shuts
the federal courts down to all pro se individuals, and after delay fraudulently sells and
renders void Ex parte Orders of dismissal without due process. Not one jury trial or
evidentiary hearing had ever.
I certify that the amount of $3,000,000.00 covers only damage/loss of my real
property by Federal Judiciary Officer Brian M. Cogan, in pro se Case #14-cv-4482 BMC.
and I agree to accept said $3,000,000.00 in Full Satisfaction and Final Settlement of these
Claims only.
Date: 05"20 -20/?
Jacksonville, Florida

i
a 3/Ri/ey/B;
Post QfficeBmx 7313
Jacksonville, FL 32238
Phone: (904) 316-3698
Individual, Pro Se

To: U.S. Chief District Judge Dora. Lizelte Irizarry
United States District Court
For the Eastern District of New York
225 Cadman Plaza East
Brooklyn, NY 11201
Re: Federal Tort Claims Act;
Claim Against Federal Judiciary Employee
Douglas C. Palmer under 28 U.S.C. $ 2675
Certified Mail. Return Receipt Requested Article No. 7012 1010 0000 6223 9071
.NOTICE OF CLAIM FOR REIMBURSEMENT OF COURT FILING FEES PAID
NOTICE IS HEREBY given that I, Barbara J. Riley, claim reimbursement of court
filing fees in the amount of $1,410.00 pre-paid to Federal Judiciary Employee,
DOUGLAS C. PALMER, for immediate access to federal courts and immediate
judgment.
That on 10/24/2014 $400.00; 12/05/2014 $505.00 and 10/19/2017 $505.00,1 paid
court filing fees for immediate administration of justice to Mr. Palmer who immediately
closed the federal courts to me. This is in clear violation of the Judiciary Act of 1789.
28 U.S. Code § 1655, First Amendment of the U.S. Constitution, Felder v. Casev 1988 of
the U.S. Supreme Court, Fifth Amendment of the U.S. Constitution, and Article I
Section 21 Access to Courts clause of the Florida Constitution which guarantees that
“The Courts shall be Open to every person for redress of any injury and Justice shall be
administered without Sale, Denial, or Delay. ”
That Mr. Palmer is in violation of his Oath of office and the U.S. Constitution. That
the federal courts are not Open to certain individuals ever. Your corrupt Clerk of Court
Douglas C. Palmer knows that the federal courts are never ever Open to pro se
individuals because for years he immediately shuts the federal courts down to all p ro se
individuals after accepting our court filing fees in advance.
I certify that the amount of $1,410. 00 covers only my money taken and stolen by
Federal Judiciary Employee, Douglas C. Palmer, under false pretenses in pro se Case
#14-cv-4482 BMC, and I agree to accept $1,410.00 in Full Satisfaction and Final
Settlement of this Claim only.

Date: /vlard’) Z7; ZDil
Jacksonville, Florida

Batbard IMiley /
Post Office BoxJ313
Jacksonville, FL 32238
Phone: (904) 316-3698
Individual, Pro Se

*fl

T°; US Chief District Judge Dora Lizette Irizarry
United States District Court
For the Eastern District of New York
225 Cadman Plaza East
Brooklyn, NY 11201
Re: Federal Tort Claims Act;
Claim Against Federal Judiciary Employee
9088

taken without guaranteed Due Process.

?

Case ^1^=4482. My property was

That1 prepaid for immediate administration ofjustice to Douglas r
u
immediately closed the federal conn? to mo tv •
,
g s L- Palrner who
Act of 1789 28 U S Code 8 1655 Firtt 7
^ ,S mflear vloIation of the Judiciary

ssssrSrrr*
“«
US Constituti on.
Clerk of Court Janet Hamilton knows that the federal ” 'J™’’ Y°Ur “"“P1 DePWy

Ms.

iisShisSnTyCePt Said S3’°0a00°00“M Satisf"°nandair3"
Date: M<L\j

2,0 ( ^

Jacksonville, Florida

Bitrftardfl Rji
Post OfficeBox 7313
Jacksonville, FL 32238
Phone: (904)316-3698
Individual, Pro Se

To; U.S. Chief District Judge Dora Lizette Irizarry
United States District Court
For the Eastern District of New York
225 Cadman Plaza East
Brooklyn, NY 11201
Re: Federal Tort Claims Act;
Claim Against Federal Judiciary Employee
.
Douglas C. Palmer under 28 U.S.C. § 2675
Certified Mail Return Receipt Requested Article No. 7012 1010 0000 6223 9064
NOTICE OF CLAIM FOR REIMBURSEMENT OF COURT FILING FEES PATTI
NOTICE IS HEREBY given that I, Barbara I Riley, claim reimbursement of court
filing fees m the amount of $905.00 pre-paid to Federal Judiciary Employee, DOUGLAS
C. PALMER, for immediate access to federal courts and immediate judgment.
That on 8/26/2015 $400.00 and 10/19/2017 $505.00,1 paid court filing fees for
immediate administration ofjustice to Mi'. Palmer who immediately closed the federal
courts to me. This is in clear violation of the Judiciary Act of 1789 28 U.S. Code §
1655, First Amendment of the U.S. Constitution, Felder v. Casey 1988 of the U.S.
Supreme Court, Fifth Amendment of the U.S. Constitution, and Article I
21 AciCefIS1t° Courts clause of the Florida Constitution which guarantees that
Ihe Courts shall be Open to every person for redress of any injury and Justice shall be
administered without Sale, Denial, or Delay. ”
That Mr. Palmer is in violation of his Oath of office and the U.S. Constitution. That
the federal courts are not Open to certain individuals ever. Your corrupt Clerk of Court
Douglas C. Palmer knows that the federal courts are never ever Open to pro se
individuals because for years he immediately shuts the federal courts down to all pro se
individuals after accepting our court filing fees in advance.
I certify that the amount of $905.00 covers only my money taken and stolen by
Federal Judiciary Employee, Douglas C. Palmer, under false pretenses in pro se Case
gl_5-cv-5022 BMC/DLI, and I agree to accept $905.00 in Full Satisfaction and Final
Settlement of this Claim only.
Date;

\.

________

/•

Jacksonville, Florida

BaHiara'di jSifdy
Post Office Box 7313
Jacksonville, FL 32238
Phone; (904) 316-3698
Individual, Pro Se

JO

)

To: U.S. Chief District Judge
United States District Court
For the Florida Middle District
300 North Hogan Street
Jacksonville, FL 32202
Re: Federal Tort Claims Act;
Claim Against Federal Judiciary Employee
Sheryl L. Loesch under 28 U.S.C. S 2675
Certified Mail Return Receipt Requested Article No, 7016 0910 0002 1948 4460

NOTICE OF CLAIM FOR REIMBURSEMENT OF COURT FTT .TNG FEES PAID
NOTICE IS HEREBY given that I, Barbara J. Riley, claim reimbursement of court
filing fees in the amount of $905.00 pre-paid to Federal Judiciary Employee, SHERYL L.
LOESCH, for immediate access to federal courts and immediate judgment.
That on 07/13/2016 $400.00, 09/19/2017 $105.00, and 11/06/2017 $400.00,1 prepaid
court filing fees for immediate administration ofjustice to Ms. Loesch who immediately
closed the federal courts to me. This is in clear violation of the Judiciary Act of 1789.
42 U.S. Code § 1983, First Amendment of the U.S. Constitution, Felder v. Casey 1988 of
the U.S. Supreme Court, Fifth Amendment of the U.S. Constitution, and Article I
Section 21 Access to Courts clause of the Florida Constitution which guarantees that
“The Courts shall be Open to every person for redress of any injury and Justice shall be
administered without Sale, Denial, or Delay. ”
That Ms. Loesch is in clear violation of her Oath of office and the US. Constitution.
That the federal courts are not Open to certain individuals ever. Your corrupt Clerk of
Court Sheryl L. Loesch knows that the federal courts are never ever Open to pro se
individuals because for years she immediately shuts the federal courts down to all pro se
individuals after accepting our court filing fees in advance.
I certify that the amount of $905.00 covers only my money taken and stolen by
Federal Judiciary Employee, Sheryl L. Loesch, under false pretenses in pro se Case #16cy-898 MMH, and I agree to accept $905.00 in Full Satisfaction and Final Settlement of
this Claim only.
Date:
Jacksonville, Florida

BarbkaU.idle\C/
Post Office'Bdx 7313
Jacksonville, FL 32238
Phone: (904)316-3698
Individual, Pro Se

53

(

To: Chief U.S. District Judge Steven Merryday
United States District Court
For the Florida Middle District - Jacksonville District
300 North Hogan St
Jacksonville, FL 32202
Re: Federal Tort Claims Act;
Claims Against Federal Judiciary Officer
Marcia Morales Howard under 28 U.S.C. 2675
Certified Mail, Return Receipt Requested Article No. 7011 1570 0001 8149 9347
NOTICE OF CLAIMS FOR FRAUDS UPON FEDERAL COURTS BY FEDERAT
JUDICIARY OFFICER MARCIA MORALES HOWARD
NOTICE IS HEREBY given that I, Barbara J. Riley, Claim damage to property in the
amount of $1,500,000.00 through frauds upon federal courts by Federal Judiciary Officer
Marcia Morales Howard who fraudulently entered her Void Ex parte order of dismissal
on 06/28/2017 in pro se Case #16-cv-961. My property was taken without due process.
That I paid for immediate administration of justice to Federal Judiciary Employee
Sheryl L. Loesch who immediately closed the federal courts to me. This is in clear
violation of the Judiciary Act of 1789. 28 U.S. Code § 1655, First Amendment of the
U.S. Constitution, Felder v. Casey 1988 of the U.S. Supreme Court, Fifth Amendment of
the U.S. Constitution, and Article I Section 21 Access to Courts clause of the Florida
Constitution which guarantees that “The Courts shall be Open to every person for redress
of any injury and Justice shall be administered without Sale, Denial, or Delay. ”
That U.S. District Court Judge Howard is in clear violation of her Oath of office and
the U.S. Constitution as she defrauds the United States. That the federal courts are not
Open to certain individuals ever. That corrupt Judge Howard plays a revised legal game.
Because for years she immediately shuts the federal courts down to all pro se individuals,
and after much delay, sells and renders void Ex parte Orders of dismissal fraudulently
dismissing U.S. Congress authorized cases without due process. Not one trial by jury or
evidentiary hearing had ever for pro se individuals.
I certify that the amount of $3,000,000.00 covers only damage/loss of my real
property by Federal Judiciary Officer Marcia Morales Howard, in pro se Case#16-cv-

96,1. MMH, and I agree to accept said $3,000,000.00 in Full Satisfaction and Final
Settlement of these Claims only.
Date:
OS-2D -2.C tj
Jacksonville, Florida

B;
iyk&tf y
Post Office Box/H 13
Jacksonville, FL 32238
Phone: (904) 316-3698
Individual, Pro Se

55

To: Chief U.S. Federal Judge Margaret M. Sweeney
United States Court of Federal Claims
717 Madison Place NW
Washington, DC 20439
Re: Federal Tort Claims Act;
Claims Against Federal Judiciary Officer
Lydia Kay Griggsby under 28 U.S.C. 2675
Certified Mail Return Receipt Requested Article No. 7015 1730 0000 7134 1745
NOTICE OF CLAIMS FOR FRAUDS UPON FEDERAL COURTS BY FEDERAL
JUDICIARY OFFICER LYDIA KAY GRIGGSBY
NOTICE IS HEREBY given that I, Barbara J. Riley, Claim damage to Property in the
amount of $4,500,000.00 through frauds upon federal court by Federal Judiciary Officer
Lydia Kay Griggsby who fraudulently entered her Void Ex parte order of dismissal on
02/05/2019 in pro se Case #18-cv-1270. My Properties were Taken without due process.
That I Paid for immediate administration of justice to Federal Judiciary Employee
Lisa L. Reyes who immediately Closed the federal courts to me. This is in clear violation
of the Judiciary Act of 1789. 28 U.S. Code § 1655, First Amendment of the U.S.
Constitution, Felder v, Casey 1988 of the U.S. Supreme Court, Fifth Amendment of the
U.S. Constitution, and Article I Section 21 Access to Courts clause of the Florida
Constitution which guarantees that “The Courts shall be Open to every person for redress
of any injury and Justice shall be administered without Sale, Denial, or Delay. ”
That U.S. Judge Griggsby is in clear violation of her Oath of office and the U.S.
Constitution as she defrauds the United States. That the federal courts are not Open to
certain individuals ever. That corrupt Judge Griggsby plays a revised legal game.
Because she immediately shut the federal court down to all pro se individuals, and after
delay, sells and renders void Ex parte Order of dismissal fraudulently dismissing U.S.
Congress authorized cases without Due Process.
I certify that the amount of $4,500,000.00 covers only damage/loss of my real
properties by Federal Judiciary Officer Lydia Kay Griggsby, in pro se Case #18-cv-f 270
LKG, and I agree to accept said $4,500,000.00 in Full Satisfaction and Final Settlement
of these Claims only.
%j L'-'v

Date: TTfaflP/ZOfl
Jacksonvifrd, Florida

Barbara^. Rjjey
Post OffiW'Box 7313
Jacksonville, FL 32238
Phone: (904)316-3698
Individual, Pro Se

<58

To: U.S. Chief Judge
United States Court of Federal Claims
717 Madison Place NW
Washington. DC 20439
Re: Federal Tort Claims Act;
Claim Against Federal Judiciary Employee
Lisa L. Reyes under 28 U.S.C. $ 2675
Certified. Mail Return Receipt Requested Article No. 7012 1010 0000 6223 9040

NOTICE OF CLAIM FOR REIMBURSEMENT OF COURT FILING FEES PAID
NOTICE IS HEREBY given that I, Barbara J. Riley, claim reimbursement of court
filing fees in the amount of $400.00 pre-paid to Federal Judiciary Employee, LISA L.
REYES, for immediate access to federal courts and immediate judgment.
That on 08/21/2018 $400.00,1 paid court filing fees for immediate administration of
justice to Ms. Reyes who immediately closed the federal courts to me. This is in clear
violation of the Judiciary Act of 1789. 28 U.S. Code § 1655, First Amendment of the
U.S. Constitution, Felder v, Casey 1988 of the U.S. Supreme Court, Fifth Amendment of
the U.S. Constitution, and Article I Section 21 Access to Courts clause of the Florida
Constitution which guarantees that “The Courts shall be Open to every person for redress
of any injury and Justice shall be administered without Sale, Denial, or Delay. ”
That Ms. Reyes is in clear violation of her Oath of office and the U.S. Constitution.
That the federal courts are not Open to certain individuals ever. Your corrupt Clerk of
Court Lisa L. Reyes knows that the federal courts are never ever Open to pro se
individuals because for years she immediately shuts the federal courts down to all pro se
individuals after accepting our court filing fees in advance.
I certify that the amount of $400.00 covers only my money taken and stolen by
Federal Judiciary Employee, Sheryl L. Loesch, under false pretenses in pro se Case #18cv-1270 LKG, and I agree to accept $400.00 in Full Satisfaction and Final Settlement of
this Claim only.

Date:

)

03-27-zo/f

Jacksonville, Florida

BarharaJ/^HeyT
Post Office Box 7313
Jacksonville, FL 32238
Phone: (904) 316-3698
Individual, Pro Se

J?

To: U.S. Chief Judge
United States Court of Federal Claims
717 Madison Place NW
Washington, DC 20439
Re: Federal Tort Claims Act;
Claim Against Federal Judiciary Employee
Anthony Curry under 28 U.S.C. 2675
Certified Mail Return Receipt Requested Article No. 7012 1010 0000 6223 9101
NOTICE OF CLAIM FOR FRAUD UPON FEDERAL COURTS BY FEDERAL
JUDICIARY EMPLOYEE ANTHONY CURRY
NOTICE IS HEREBY given that I, Barbara J. Riley, claim damage to property in the
amount of $4,500,000.00 through fraud upon federal courts by federal judiciary employee
Anthony Curry who entered his personal Void Ex parte clerk’s judgment of dismissal on
02/06/2018 in pro se Case #18-cv-1270. My property was taken without due process.
That I prepaid for immediate administration ofjustice to U.S. Clerk Lisa L. Reyes
who immediately closed the federal courts to me. This is in clear violation of the
Judiciary Act of 1789, 42 U.S. Code § 1983, First Amendment of the U.S. Constitution,
Felder v. Casey 1988 of the U.S. Supreme Court, Fifth Amendment of the U.S.
Constitution, and Article I Section 21 Access to Courts clause of the Florida Constitution
which guarantees that “The Courts shall be Open to every person for redress of any injury
and Justice shall be administered without Sale, Denial, or Delay. ”
That Mr. Curry is in dear violation of his Oath of office and the U.S. Constitution.
That the federal courts are not Open to certain individuals ever. Your corrupt U.S. Clerk
of Court Lisa L. Reyes knows that the federal courts are never ever Open to pro se
individuals. Because for years Ms. Reyes immediately shuts the federal courts down to
all pro se individuals, and after delay without hearing Mr. Curry enters void Ex parte
clerk’s judgment of dismissal.
I certify that the amount of $4,500,000.00 covers only damage/loss of my real
property by Federal Judiciary Employee, Anthony Curry, in pro se Case #18-cv-1270
LKG, and I agree to accept said $4,500,000.00 in Full Satisfaction and Final Settlement
of this Claim only.

Date:
Jacksonville, Florida
Jacksonville, FL 32238
Phone: (904) 316-3698

1

APPEAL, CLOSED
i

U.S. District Court
Middle District of Florida (Jacksonville)
CIVIL DOCKET FOR CASE #: 3:19-cv-01433-HES-JBT

Riley v. United States of America
Assigned to: Senior Judge Harvey E. Schlesinger
Referred to: Magistrate Judge Joel B. Toomey
Demand: $9,999,000
Cause: 42:1983 Civil Rights Act

Date Filed: 12/13/2019
Date Terminated: 04/29/2020
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Barbara J, Ri!ey

represented by Barbara J. Riley
P.O.Box 7313
Jacksonville, FL 32238-0313
904/316-3698
PRO SE

V.
Defendant
United States of America

represented by Lacy R. Harwell, Jr.
US Attorney's Office - FLM
Suite 3200
400 N Tampa St
Tampa. FL 33602-4798
813/274-6000
Fax: 813/274-6200
Email: randy.harwell@usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Date Filed

#

12/13/2019

I PETITION VERIFIED for violations of due process with demand for a jury trial on all
claims against United States of America with Jury Demand Filing fee $ 400.00, receipt
number JAX032221 filed by Barbara J. Riiey.(PAM) Modified on 12/16/2019 (PAM).
Received two courtesy copies. (Entered: 12/16/2019)

12/20/2019

2 NOTICE of designation under Local Rule 3.05 - Track 2 (MGG) (Entered: 12/20/2019)

12/26/2019

3

Docket Text

SUMMONS issued as to U.S. Attorney and U.S. Attorney General. (PAM) (Entered:
j 12/26/201.9^

01/13/2020

4 CERTIFICATE of interested persons and corporate disclosure statement by Barbara J
Riley. (AEJ) (Entered: 01/13/2020)

01/21/2020

5

01/24/2020

retumed executed Barbara 1 Ritey. United States of America served on
j 12/31/2019, answer due 3/2/2020, (Attachments: # l Exhibit)(PAM) (Entered: 01/22/2020)
6 j AFFIDAVIT of Barbara J. Riley of proof of service of process on U.S. Attorney General

6/

with legal memorandum re: 5 Summons returned executed as to USA by Barbara J. Riley.
(Attachme
¥ 1 Exhibit)(PAM) (Entered: 01/24/2^

----------------i

01/28/2020

--------------__---------------------- -

. .

_____________

2 ORDER advising pro se Plaintiff of some procedural rules with which she must
comply. Plaintiff’s proof of service due by 3/15/20. See Order for details. Signed by
Magistrate Judge Joel B. Toomey on 1/28/2020. (TAM) (Entered: 01/28/2020)

02/13/2020

8

03/02/2020

9 MOTION to Dismiss Petition, with Prejudice by All Defendants. (Attachments: # 1
Exhibit A (Docket, EDNY case no. 14cv4482), # 2 Exhibit B (Docket, EDNY case no.
15cv5022), # 3 Exhibit C (Docket, MDFL case no. 16cv898), # 4 Exhibit D (Docket,
MDFL case no. 16cv961), # 5 Exhibit E (Docket, Ct. of Claims case no. 18cvl270))’
(Harwell, Lacy) (Entered: 03/02/2020)

CERTIFICATE of service by Barbara J. Riley re 2 Notice of designation of track (PAM)
(Entered: 02/13/2020)

03/09/2020

10

03/20/2020

11 NOTICE of filing Exhibit A by Barbara J. Riley re 10 Affidavit (AEJ) (Entered-

AFFIDAVIT of Proofs of two service of process on defendant with 8 exhibits attached re:
7 Order and 3 Summons issued as to USA by Barbara J. Riley. (Attachments: # I Exhibit
B No exhibit A received, # 2 Exhibit C, # 3 Exhibit D, # 4 Exhibit E, # 5 Exhibit F, #6
Exhibit G, # 2 Exhibit H)(PAM) No exhibit A received only seven exhibits B thru FI
received. (Entered: 03/09/2020)
03/20/2020)

03/20/2020

12 RESPONSE in Opposition re 2 MOTION to Dismiss Petition, with Prejudice filed by
Barbara J. Riley. (AEJ) (Entered: 03/20/2020)

04/28/2020

11 ORDER granting 9 Motion to Dismiss with Prejudice; dismissing this case with
prejudice; directing the Clerk to terminate all pending motions and dose this case.
Signed by Senior Judge Harvey E. Schlesinger on 4/27/2020. (MGG) (Entered
04/28/2020)

05/26/2020 '

14 NOTICE OF APPEAL as to 12 Order on Motion to Dismiss by Barbara J. Riley. Filing fee
$ 505, receipt number JAX033102. (Attachments: # 1 Mailing EnvelopeVAFC) (Entered05/27/2020)

05/27/2020

15

TRANSMITTAL of initial appeal package to USCA consisting of copies of notice of
appeal, order/judgment being appealed, and motion, if applicable to USCA re 14 Notice of
Appeal. (Attachments: # 1 Notice of Appeal, #2 Order Diet. 13YAFC) (Entered 05/27/2020)

PACER Service Center
Transaction Receipt
05/27/2020-19:07:34
PACER
Login:

Client Code:

Description:

Docket Report

Search
Criteria:

3:19-cv-01433-HESJBT

Billable
Pages:

2

Cost:

0.20

